TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                Inappropriate Use of Email by Employees and
                     System Configuration Management
                  Weaknesses Are Creating Security Risks



                                           July 31, 2006

                              Reference Number: 2006-20-110




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                  DEPARTMENT OF THE TREASURY
                                                        WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                   July 31, 2006


 MEMORANDUM FOR CHIEF INFORMATION OFFICER
                CHIEF, MISSION ASSURANCE AND SECURITY SERVICES

 FROM:                         Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – Inappropriate Use of Email by Employees and
                               System Configuration Management Weaknesses Are Creating Security
                               Risks (Audit # 200520032)

 This report presents the results of our review to determine whether the Internal Revenue
 Service’s (IRS) electronic mail (email) system was being used properly by employees and was
 secured by system administrators.

 Synopsis
 Email allows an organization and its employees to better communicate with each other,
 customers, and business partners. The risk of computer viruses,1 however, has prompted the IRS
 to screen for questionable incoming emails, issue a personal
 use policy2 on what an employee can and cannot do with
 email, and conduct awareness training to all employees on       Employees are not following
 the importance of complying with the email use policy.         the IRS email use policy, and
                                                                 unsecured and unauthorized
 While these efforts established a good foundation for email     email servers are putting the
 security, employees are not following the IRS’ personal           internal network at risk.
 email use policy. In addition, the IRS has unsecured and


 1
   A computer virus is a piece of programming code that is buried in an existing program and, when executed by the
 victim, can cause some unexpected and undesirable events. One of the fastest spreading computer viruses was the
 Love Letter virus, which was sent via email with “I LOVE YOU” in the subject field. This virus replicated itself to
 everyone in the user’s Microsoft Outlook address book, then destroyed local files.
 2
   IRS Policy on Limited Personal Use of Government Information Technology Equipment/Resources,
 dated May 3, 2002.
                           Inappropriate Use of Email by Employees and System
                                 Configuration Management Weaknesses
                                        Are Creating Security Risks


unauthorized email servers3 on its computer network. As a result, the IRS’ internal network, its
computers, and the data maintained on the network could be at risk of being compromised,
destroyed, or shutdown.
    •    IRS employees are violating provisions of the
         personal use policy with their email usage.                          We found 71 (74 percent) of
         Specifically, we found inappropriate email messages                  96 employees had in their
         in 74 percent of the employee mailboxes reviewed.                    electronic mailboxes email
         These inappropriate email messages contained chain                   messages that violated the
                                                                               IRS’ personal use policy.
         letters, jokes, offensive content, and sexually explicit
         content.
         The IRS’ personal use policy protects the organization from employee actions that might
         harm or bring unnecessary risk to the organization. For example, hackers have designed
         email messages containing computer viruses to entice recipients to open them because of
         their interesting subject lines. Opening these types of emails can activate the computer
         virus, which in turn could destroy data on computers, enable the hacker to gain
         unauthorized access to the computer and any sensitive information stored on the
         computer, and disrupt email and computer operations. While the IRS has conducted
         awareness presentations and distributed communications to encourage employees to
         comply with its personal use policy, it does not effectively monitor the email of its
         employees to ensure compliance with the policy.
    •    Email servers, like any other computer component, can be vulnerable to computer attacks
         (e.g., denials of service4 or buffer overflows5) and need to be properly secured and
         maintained. The IRS maintains 228 authorized email servers to support its email
         operations. To evaluate the security over email servers, we selected a judgmental sample
         of 28 email servers and found 687 security vulnerabilities on all 28 servers. People can
         exploit security vulnerabilities to shut down the servers and disrupt email service or to
         use the servers to access or attack other computers in the network, which could disrupt
         other critical operations in the IRS.
In addition, the IRS should limit the number of email servers needed for its email operations to
the minimum needed. Aside from the 228 email servers cited above, we identified an additional




3
  An email server is a computer that receives email messages and stores messages in the recipient’s electronic
mailbox on the computer.
4
  Denial of service attacks inundate a computer system or network with traffic that overloads the system resources,
causing them to cease operations or lose network connectivity.
5
  Buffer overflows occur when a user inputs unexpected data to predefined fields that a program is not designed to
handle. This situation can cause the program to run supplemental instructions by the user or to cease operation.
                                                                                                                      2
                           Inappropriate Use of Email by Employees and System
                                 Configuration Management Weaknesses
                                        Are Creating Security Risks


4,913 Internet Protocol6 addresses with devices/servers that have been configured to operate as
unauthorized email servers. Any email received through unauthorized email servers would
circumvent the security screening established to identify malicious software. If the email
contains a computer virus, it could infect the computer as well as the computer network. To
evaluate the security of these servers, we selected a sample of 30 and found 363 security
vulnerabilities on all 30 computers.
Security vulnerabilities can be exploited to shut down the server and disrupt all other functions
of these servers, or use the server to access or attack other computers in the network, which
could disrupt other critical operations in the IRS. The majority of the security vulnerabilities on
the email servers cited above occurred because system administrators had not installed current
security patches7 to the email servers.

Recommendations
The Chief, Mission Assurance and Security Services, should continue to emphasize the risks
associated with inappropriate email use and consider implementing a program of monitoring
email message content, which could subsequently increase the number of employees disciplined
for abusing their email privileges. The Chief Information Officer should ensure existing
procedures are followed to install security updates and patches on all email servers and hold
system administrators accountable for ensuring only authorized computers are enabled to
perform as email servers.

Response
IRS management agreed with all four of our recommendations. The Chief, Mission Assurance
and Security Services, will consider a program to monitor email message content and will also
add reminders to existing security awareness training that disciplinary actions have been and will
be taken against employees for email abuse. In addition, the Chief Information Officer will hold
system administrators accountable for ensuring only authorized computers are enabled to
perform as email servers and existing procedures are followed to install security updates and
patches on all email servers. Management’s complete response to the draft report is included as
Appendix IV.




6
  An Internet Protocol address is a unique identifier that devices such as routers, computers, servers, and printers use
to identify and communicate with each other on a computer network. The 4,913 Internet Protocol addresses were
connected to systems configured to route email.
7
  A patch is a fix to a program as a result of a design flaw in the program. Patches must be installed or applied to the
applicable computer to correct the flaw.
                                                                                                                      3
                     Inappropriate Use of Email by Employees and System
                           Configuration Management Weaknesses
                                  Are Creating Security Risks


Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs) at
(202) 622-8510.




                                                                                            4
                              Inappropriate Use of Email by Employees and System
                                    Configuration Management Weaknesses
                                           Are Creating Security Risks




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Employees Are Not Following the Personal Use Policy ..............................Page 3
                    Recommendations 1 and 2: ................................................Page 5

          Unsecured and Unauthorized Email Servers Are Putting
          the Internal Network at Risk .........................................................................Page 5
                    Recommendations 3 and 4: ................................................Page 7


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 9
          Appendix II – Major Contributors to This Report ........................................Page 11
          Appendix III – Report Distribution List .......................................................Page 12
          Appendix IV – Management’s Response to the Draft Report ......................Page 13
        Inappropriate Use of Email by Employees and System
              Configuration Management Weaknesses
                     Are Creating Security Risks




                   Abbreviations

Email          Electronic mail
IRS            Internal Revenue Service
                          Inappropriate Use of Email by Employees and System
                                Configuration Management Weaknesses
                                       Are Creating Security Risks




                                            Background

Electronic mail (email) is a form of electronic messaging and is a widely used method of
transporting messages across the Internet. The Internal Revenue Service (IRS) relies on email as
a method of communication within the organization as well as with external sources for business
purposes. Email often replaces memoranda, meetings, and telephone conversations.
Email, however, also presents one of the highest security risks to computer networks. For
example, most computer viruses are presently spread through email attachments. A computer
virus is a piece of programming code that is buried in an existing program or file and, when
executed by the victim, can cause some unexpected and undesirable events. Computer viruses
can destroy data on computers, disrupt computer operations, and degrade network performance.1
As such, it is critical to maintain controls over email use as well as the computer hardware and
software installed to support email operations.
In November 2000, we reported there was strong evidence that IRS employee use of email for
nonbusiness purposes was significant.2 In May 2002, given the rapidly expanding use of the
Internet and email as today’s primary sources of information and personal communication, the
IRS implemented a limited personal use policy for the Internet, email, and other equipment and
resources.3 The IRS policy cautions employees to conduct themselves professionally in the
workplace and to refrain from using Federal Government information technology equipment and
resources for activities that are inappropriate based on established standards of conduct. The IRS
considers email as inappropriate if it contains large, nonbusiness file attachments; chain letters;
jokes; material that is offensive to other employees; or sexually oriented material. Email
pertaining to illegal activities and other prohibited outside activities, such as running a business,
fundraising, or restricted political activity, is also considered inappropriate.
As another means to protect itself from incoming emails, the IRS uses software to screen for
viruses and other malicious programs that may be hidden in email messages entering the IRS
network via the Internet. In addition, it has implemented technical controls to protect its email
servers from potential email threats. An email server is a computer that receives email and stores
it in the recipient’s electronic mailbox. To access the mailbox and read the email, a recipient


1
  One of the fastest spreading computer viruses was the Love Letter virus, which was sent via email with “I LOVE
YOU” in the subject field. This virus replicated itself to everyone in the user’s Microsoft Outlook address book,
then destroyed local files.
2
  Management Should Take Action to Address Employees’ Personal Use of Email (Reference Number 2001-20-017,
dated November 2000).
3
  IRS Policy on Limited Personal Use of Government Information Technology Equipment/Resources,
dated May 3, 2002.
                                                                                                         Page 1
                      Inappropriate Use of Email by Employees and System
                            Configuration Management Weaknesses
                                   Are Creating Security Risks



must enter a logon name and a password. A large organization, such as the IRS, can use many
email servers to support its users.
This review was performed at the IRS National Headquarters in Washington, D.C., in the Office
of the Chief Information Officer and the Chief, Mission Assurance and Security Services, during
the period August 2005 through February 2006. The audit was conducted in accordance with
Government Auditing Standards. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




                                                                                        Page 2
                          Inappropriate Use of Email by Employees and System
                                Configuration Management Weaknesses
                                       Are Creating Security Risks




                                      Results of Review

Employees Are Not Following the Personal Use Policy
Security software used by the IRS prevents many inappropriate messages from entering the IRS
network via the Internet. The IRS, however, cannot rely solely on this software. An email virus
attack can spread worldwide in minutes, but it may take hours or days for antivirus software
vendors to analyze, create, and distribute virus definition updates to protect systems against
potential computer virus attacks. In addition to using security software, the IRS has conducted
awareness presentations and distributed communications to encourage employees to comply with
its email policy. Examples of these awareness efforts include the all-employee annual computer
security training modules and periodic communications via email (e.g., the IRS Headlines
newsletter).
To determine whether IRS employees were complying with the IRS’ personal use policy, we
selected a statistical sample of 96 employees from the
IRS’ list of email addresses and reviewed 46,551 emails       We found e-mail messages that
received and sent by these employees during June through       violated the IRS’ personal use
August 2005. We found 2,576 messages in                             policy in the electronic
                                                              mailboxes of 71 (74 percent) of
71 (74 percent) of the 96 employee mailboxes that
                                                                        96 employees.
violated the IRS’ personal use policy. These employees
had from 1 to 288 inappropriate emails in their mailboxes.
Specifically, we found the following types of inappropriate emails:
    •   Chain letters, jokes, and/or pictures accounted for 76 percent of the inappropriate emails.
        The content is often considered harmless on its own; however, it is well known that these
        messages present a security threat by being common carriers of malicious software.4
    •   Emails containing content considered offensive according to IRS guidelines accounted
        for 20 percent of the inappropriate emails. These emails contained hate speech and
        material that ridiculed others on the basis of race, creed, religion, color, sex, disability,
        national origin, or sexual orientation.
    •   Emails containing sexually oriented content, prohibited activities, and/or large files
        accounted for the remaining 4 percent of the inappropriate messages. Prohibited
        activities include activities conducted for commercial purposes, in support of for-profit
        activities, or in support of other outside employment.

4
 Malicious software is designed to infiltrate or damage a computer system, without the owner’s consent. It includes
computer viruses, spyware, and adware.
                                                                                                           Page 3
                          Inappropriate Use of Email by Employees and System
                                Configuration Management Weaknesses
                                       Are Creating Security Risks



Figure 1 summarizes these email policy violations by type.
                            Figure 1: Email Policy Violations by Type

                                 Chain Letters                                1,953

                                 Offensive Content                            528
                                 Sexually Oriented Content                     55
                                 Prohibited Activities                         22
                                 Large Files (graphics, video, sound, etc.)    18
                                 TOTAL                                        2,576

                              Source: Our analysis of a sample of IRS employees’
                              email messages.

The large number of inappropriate emails places the IRS network at risk. For example,
malicious software could be attached to these emails that could destroy data on the computer,
enable unauthorized persons to access sensitive information, and disrupt computer operations by
causing a denial of service attack.5
In addition to the security risks, the performance and efficiency of the IRS’ computing network
is degraded by the number and size of inappropriate email messages. Many of the sampled
messages contained graphics, sound, video, and/or animations that significantly increased the
sizes of the files. Inclusion of these unnecessary features in an email message often increases the
message’s size from 10 to 50 times the size of a normal text message, causing the system to
operate slower and less efficiently, and creates the need for additional storage capacity that can
be costly.
Offensive and inappropriate content in messages can also damage employee relationships and
lead to adverse personnel actions or potential lawsuits. When forwarded to outside recipients,
these messages could also invite high-profile media attention, damaging the IRS’ reputation.
The IRS’ personal use policy protects the organization from employee actions that might harm or
bring unnecessary risk to the organization. For example, hackers will craft email messages,
which contain malicious software, designed to entice recipients to open them because of their
interesting subject lines. Opening these types of emails could activate the malicious software,
which in turn could destroy data on computers, enable unauthorized persons access to sensitive
information, and disrupt computer operations.



5
 Denial of service attacks inundate a computer system or network with traffic that overloads the system resources,
causing them to cease operations or lose network connectivity.
                                                                                                            Page 4
                          Inappropriate Use of Email by Employees and System
                                Configuration Management Weaknesses
                                       Are Creating Security Risks



The IRS has not effectively monitored the email of its employees to ensure compliance with the
policy and has taken relatively few disciplinary actions. For Fiscal Years 2003 through 2005, the
IRS disciplined only 283 employees for abuse of email privileges. Of the 283 employees,
193 received written or oral counseling; 86 received formal disciplinary actions including
admonishments, reprimands, suspensions, and removal; and 4 resigned. One additional case was
referred to the Treasury Inspector General for Tax Administration Office of Investigations.

Recommendations
The Chief, Mission Assurance and Security Services, should:
Recommendation 1: Continue to emphasize the risks associated with inappropriate email
use. If reminders that disciplinary actions have been taken against employees for email abuse are
added to existing security awareness training, the number of violations may be reduced.
        Management’s Response: The IRS agreed with this recommendation and the Chief,
        Mission Assurance and Security Services, will ensure inclusion of reminders that
        disciplinary actions have been and will be taken against employees for email abuse in the
        next update to the IRS’ annual security awareness training.
Recommendation 2: Consider implementing a program of monitoring email message
content, which could subsequently increase the number of employees disciplined for abusing
their email privileges. This approach will require a commitment of additional resources.
However, considering the risks of subjecting the IRS network to malicious software, we believe
this commitment is necessary.
        Management’s Response: The IRS agreed with this recommendation and the Chief,
        Mission Assurance and Security Services, will review the IRS policy on email content
        monitoring and make a policy recommendation concerning a content monitoring
        program.

Unsecured and Unauthorized Email Servers Are Putting the Internal
Network at Risk
Email servers, like any other computer component, can be vulnerable to many different types of
attacks, such as denials of service or buffer overflows,6 that can lead to the compromise of a
single server and even the entire network. The IRS could suffer unauthorized accesses to
sensitive information and disruptions of computer operations. To reduce these risks, the IRS
must ensure the email servers are configured properly and limit the number of email servers to
the minimum needed to continue uninterrupted operations.

6
 Buffer overflows occur when a user inputs unexpected data to pre-defined fields that a program is not designed to
handle. This situation can cause the program to run supplemental instructions by the user or to cease operation.
                                                                                                           Page 5
                           Inappropriate Use of Email by Employees and System
                                 Configuration Management Weaknesses
                                        Are Creating Security Risks



Authorized email servers contain security vulnerabilities
The IRS provided us with a list of 228 authorized email servers. We selected a judgmental
sample of 28 of the authorized email servers and performed vulnerability scans using the Nessus7
security software. Our tests identified 687 security vulnerabilities. Of these, 250 (36 percent)
were identified as high risk.8 The other 437 security vulnerabilities were identified as medium
and low risk.9 Security vulnerabilities were found on all 28 servers.
The majority of the security vulnerabilities occurred because system administrators had not
installed current security updates and patches.10 Untimely installation of patches to existing
email servers increases the risk that the systems could be disrupted and vulnerable to new
attacks.
All of the existing email servers were replaced during our review, as the IRS migrated all of its
email servers to Microsoft Exchange 2003. This migration, begun in August 2005, was
completed in April 2006. We scanned 16 Microsoft Exchange 2003 email servers, as of
December 2005, and found only minor security vulnerabilities. However, these servers will be
subject to the same weaknesses found on the servers that were replaced if system administrators
are not diligent in installing security updates and patches as required.

Unnecessary and unauthorized email servers existed on the IRS network
We scanned the entire IRS internal network to identify any computer configured to operate as an
email server. In addition to the 228 computers the IRS listed as “authorized” email servers, our
scan identified 4,913 Internet Protocol11 addresses with devices/servers that have been configured
to operate as unauthorized email servers. Any emails received by unauthorized servers from
outside the IRS network system circumvent the security software installed to screen for
malicious software, thus increasing the risk the IRS could suffer unauthorized accesses to
sensitive information and disruptions of computer operations unnecessarily. These unauthorized



7
  Nessus is a vulnerability scanning program that identifies security vulnerabilities of the computer on which the
program is run.
8
  High-risk vulnerabilities are those that are well known to hackers, are easily exploitable, and have the potential to
cause significant damage (e.g., allow an unauthorized person to operate as the root user, giving him or her total
access and control of the computer).
9
  Medium-risk vulnerabilities are those that result in a security hole that can lead to privilege escalation; however, an
attacker needs additional information or tools to exploit the vulnerability. Low-risk vulnerabilities can provide
information to an attacker, but the vulnerability is not a threat in itself.
10
   A patch is a fix to a program as a result of a design flaw in the program. Patches must be installed or applied to
the applicable computer to correct the flaw.
11
   An Internet Protocol address is a unique identifier that devices such as routers, computers, servers, and printers
use in order to identify and communicate with each other on a computer network. The 4,913 Internet Protocol
addresses we identified were connected to systems configured to route email.
                                                                                                                Page 6
                           Inappropriate Use of Email by Employees and System
                                 Configuration Management Weaknesses
                                        Are Creating Security Risks



servers could also be used to send fictitious email that looks as if it came from a legitimate user
and as a means to send spam12 mail.
From a judgmental sample of 30 of the 4,913 unauthorized devices/servers, we identified
363 security vulnerabilities (on all 30 computers) in the email server applications and the
operating systems on which the email applications run. Of these, 149 (41 percent) were
identified as high-risk vulnerabilities. The other 214 security vulnerabilities were identified as
medium or low risk. The high-risk security vulnerabilities could cause a denial of service, cause
buffer overflows that could produce a program crash or erroneous results, or allow unauthorized
persons to have access to the computer and possibly execute commands as if the user were the
system administrator.
Some portion of the 4,913 unauthorized email servers may be legitimate email servers without
being classified as such on the IRS inventory. However, we believe most of the computers were
likely installed by the IRS with the default email capability set by the vendor of the operating
system. The IRS configuration guide requires system administrators to suppress this capability
when installing most operating systems, unless it is specifically needed. Due to the large number
of unauthorized email servers identified, we believe system administrators did not comply with
these requirements. In addition, the IRS currently does not scan its network to identify and close
unauthorized email servers.

Recommendations
The Chief Information Officer should:
Recommendation 3: Ensure existing procedures are followed to install security updates and
patches on all email servers. Periodic scans should be conducted to determine whether the
updates and patches have been installed.
         Management’s Response: The IRS agreed with this recommendation and the
         Director, Information Technology Infrastructure, in the Enterprise Operations
         organization, will ensure local administrators run a program against all email servers that
         will report any deficiencies in patches and security updates. To ensure all email servers
         are addressed, the Director, Information Technology Infrastructure, will also work with
         IRS Chief Counsel and Criminal Investigation functions to help them establish
         procedures to install security updates and procedures.
Recommendation 4: Hold system administrators accountable for ensuring only authorized
computers are enabled to perform as email servers. Periodic scans should be conducted to
identify unauthorized servers and applications.


12
  Spam mail is unsolicited email sent indiscriminately to individuals, businesses, and multiple mailing lists; it is
often referred to as junk email.
                                                                                                                Page 7
               Inappropriate Use of Email by Employees and System
                     Configuration Management Weaknesses
                            Are Creating Security Risks



Management’s Response: The IRS agreed with this recommendation and the
Assistant Chief Information Officer, Enterprise Operations, will review servers to
determine their status and identify any unauthorized email servers. If an email server is
not authorized, the capability will be disabled unless a business case is approved using a
waiver.




                                                                                    Page 8
                           Inappropriate Use of Email by Employees and System
                                 Configuration Management Weaknesses
                                        Are Creating Security Risks



                                                                                                    Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the IRS email system was being
used properly by employees and was secured by system administrators. Specifically, we:
I.       Determined whether employees were complying with the IRS Policy on Limited Personal
         Use of Government Information Technology Equipment/Resources (personal use policy)
         dated May 3, 2002, regarding email.
         A. Reviewed the personal use policy as it relates to email and determined whether IRS
            employees were aware of existing guidance and policy by reviewing the training,
            procedures, and policies provided to employees on the use of email.
         B. Determined the number of adverse actions taken against IRS employees for violating
            email guidance and policy for Fiscal Years 2003 through 2005.
         C. Selected a random sample of 96 mailboxes from the IRS’ Global Address List in
            Outlook. As of August 1, 2005, the Global Address List had approximately
            87,000 users. We selected a statistical (attribute) sample using a 95 percent
            confidence level, an expected error rate of 50 percent, and a precision of +10 percent.
         D. Reviewed the sample of 96 mailboxes for messages received and sent during June
            through August 2005 to determine whether IRS employees were using email in
            compliance with the IRS’ personal use policy.
II.      Determined whether the IRS implemented adequate controls to ensure the email system
         was secure and malicious content was not delivered to the end user.
         A. Determine whether the email servers were configured securely.
             1. Obtained from IRS management a list of 228 authorized Secure Enterprise
                Messaging Systems email servers, including those mail servers that support the
                IRS Office of Chief Counsel.
             2. Conducted a Network MAPper1 scan of the IRS network to identify computers
                with open ports indicating the potential that an email server was installed on those
                computers.


1
 This is free security scanner software that can identify certain attributes of the computer against which it is run.
These attributes include the operating system and version being used, the ports that are open, and the services being
offered.
                                                                                                              Page 9
                           Inappropriate Use of Email by Employees and System
                                 Configuration Management Weaknesses
                                        Are Creating Security Risks



             3. Reviewed for vulnerabilities a judgmental sample of 30 email servers that were
                not a part of the 228 authorized email servers identified in Step II.A.1. Our port
                scanning identified 4,913 computers that were not included in the list of
                authorized email servers. We used a judgmental sample because we did not plan
                to project the results.
             4. Performed security testing on a judgmental sample of 28 of the 228 authorized
                Secure Enterprise Messaging System mail servers that had not migrated to
                Microsoft Exchange 2003.
                  a. Used the Nessus vulnerability scanner to identify potential vulnerabilities on
                     the selected servers.
                  b. Determined whether all operating system and application patches had been
                     installed or mitigating controls had been implemented.
             5. Performed security testing on a judgmental sample of 30 email servers that were
                upgraded or replaced during the Microsoft Exchange 2003 migration. We used
                automated tools such as the Nessus vulnerability scanner and the Microsoft
                Baseline Security Analyzer2 to identify potential vulnerabilities (including
                missing operating system and application patches) in the operating system and
                mail application configurations.
         B. Determined whether the IRS actively scanned incoming email for malicious content
            (e.g., email viruses).
             1. Reviewed the rules used to identify malicious content and what types of
                attachments are allowed.
             2. Determined how often the rules are modified and how often the scanner or
                antivirus software is updated.
             3. Reviewed the process by which spam3 and other bulk email is handled.
         C. Determined whether the IRS provided its email system administrators sufficient and
            ongoing training on the email server applications being used by reviewing the training
            records over the last 2 fiscal years for the email administrators responsible for the
            authorized email servers.




2
  This is a Microsoft Corporation tool designed to determine the security state of a computer running the Microsoft
operating system and to detect common security misconfigurations and missing security updates.
3
  Spam mail is unsolicited email sent indiscriminately to individuals, businesses, and multiple mailing lists; it is
often referred to as junk email.
                                                                                                            Page 10
                     Inappropriate Use of Email by Employees and System
                           Configuration Management Weaknesses
                                  Are Creating Security Risks



                                                                              Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Steve Mullins, Director
Kent Sagara, Acting Director
Thomas Polsfoot, Audit Manager
Dan Ardeleano, Senior Auditor
David Brown, Senior Auditor
George Franklin, Senior Auditor
Larry Reimer, Senior Auditor
Esther Wilson, Senior Auditor




                                                                                     Page 11
                    Inappropriate Use of Email by Employees and System
                          Configuration Management Weaknesses
                                 Are Creating Security Risks



                                                                 Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Chief Information Officer OS:CIO
       Chief, Mission Assurance and Security Services OS:MA




                                                                         Page 12
     Inappropriate Use of Email by Employees and System
           Configuration Management Weaknesses
                  Are Creating Security Risks



                                                Appendix IV

Management’s Response to Draft Report




                                                          Page 13
Inappropriate Use of Email by Employees and System
      Configuration Management Weaknesses
             Are Creating Security Risks




                                                     Page 14
Inappropriate Use of Email by Employees and System
      Configuration Management Weaknesses
             Are Creating Security Risks




                                                     Page 15
Inappropriate Use of Email by Employees and System
      Configuration Management Weaknesses
             Are Creating Security Risks




                                                     Page 16
Inappropriate Use of Email by Employees and System
      Configuration Management Weaknesses
             Are Creating Security Risks




                                                     Page 17
